U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




        National Telecommunications
      and Information Administration



          Review of BTOP Award for the
        San Francisco Bay Area Wireless
        Enhanced Broadband (BayWEB)
                                Project


                     Final Report No. OIG-11-024-I
                                       May 6, 2011




                      Office of Audit and Evaluation
                                                  UNITED STATES DEPARTMENT OF COMMERCE
                                                  The Inspector General
                                                  Washington, D.C. 20230


May 6,2011

MEMORANDUM FOR:	             Lawrence E. Strickling

                             Assistant Secretary

                             For Communications and Information

                             National Telecommunications and Information Administration




FROM:	
                              ~~5~
                             Todd J. Zinser

SUBJECT:	                    Review 0/ BTOP Award/or the San Francisco Bay Area
                             Wireless Enhanced Broadband (Bay WEB) Project
                             Final Report No. 0IG-II-024-1

This memorandum provides our final report on the review we conducted in response to a
November 1, 2010, letter from the County of Santa Clara, California. The letter from the County
expressed concerns over a $50.6 million Broadband Technology Opportunities Program (BTOP)
grant to Motorola, Inc., for deploying a public safety network and a public access wireless
broadband network in the San Francisco Bay Area.

The objectives of our review were to (I) examine the procedures the National
Telecommunications and Information Administration (NTIA) followed in its response to a
complaint from the County of Santa Clara and the City of San Jose about the grant to Motorola,
and (2) evaluate how NTIA handled Motorola's request for deviating from the approved
equipment valuation method.

We identified areas in which NTIA could
have better handled both matters. For                 BayWEB Quick Facts
example, NTIA did not promptly engage
the program's Grants Officer to help          •   The award was made to Motorola on August 13,
address the complaint made against the            2010, and accepted by the firm on September
award or to respond to Motorola's                 16,2010.
requests to be exempted from an award         •   The National Oceanic and Atmospheric
                                                  Administration (NOAA) awarded the grant on
requirement. We recommend that NTIA               NTlA's behalf.
improve its procedures for handling           •   The award amount for this infrastructure project
complaints associated with BTOP awards,           is $50,593,551, and the recipient share of the
and remind its Federal Program Officers           cost is $21 ,890,086.The total estimated cost of
(FPOs) assigned to monitor BTOP grants            the project is $72,483,637.
to work with grants officers to address       •   The goal of the project is to deploy an
                                                  interoperable wireless public safety broadband
important issues. We discussed our                network and public access wireless broadband
concerns and recommendations with                 network in the greater San Francisco Bay Area.
NTIA officials on February 17, 20 II, and
with you on March 21, 2011. As we
discussed, we plan to further review the complaint to examine issues that were outside the scope
of this review, and that you indicated are also outside the scope of NTIA’s program
responsibilities.

Your written response to our draft report notes that NTIA has already begun to address our
recommendations. We summarize your response in this report and have included it in its entirety
as attachment A.

Background

On February 17, 2009, the President signed the American Recovery and Reinvestment Act of
2009 into law. The Recovery Act gave NTIA $4.7 billion to establish BTOP,1 and NTIA has
awarded $3.9 billion in more than 230 BTOP grants to deploy broadband for infrastructure,
public computer centers, and sustainable broadband adoption projects. Of these awards, 123
were infrastructure related—grants made to deploy new or improved Internet facilities and
connect community anchor institutions such as schools, libraries, hospitals, and public safety
facilities.

One of these infrastructure awards, the San Francisco Bay Area Wireless Enhanced Broadband
(BayWEB) project, is a nearly $50.6 million grant awarded to Motorola Solutions, Inc. (formerly
Motorola, Inc.) in August 2010. The project is a public-private partnership between Motorola
and public safety entities throughout the counties that comprise the Bay Area (pictured in figure
1, plus the County of Santa Cruz, which is not shown). The goal of the project is to build a
700 MHz interoperable wireless public safety
broadband network and a public access wireless
broadband network.                                     Figure 1. Bay Area Counties
Our review of the award focuses on concerns in
two areas of the award monitoring process:

•   In September 2010, the Mayor of San Jose
    and the County Executive of Santa Clara
    County submitted a letter to the Secretary of
    Commerce requesting suspension of the
    award until concerns about the application
    process for the award and the
    implementation of the project were
    answered—specifically, the process
    followed to select Motorola to apply for the
    award on the Bay Area’s behalf, a question
    relating to the legitimacy of the organization
    acting on behalf of the Bay Area, and a lack
    of adequate communications of the resources
                                                            
1
  BTOP is a competitive grant program intended to provide funds for deploying broadband infrastructure in the
United States, enhance broadband capacity at public computer centers, improve access to broadband services for
public safety agencies, and promote sustainable broadband adoption projects. 


                                                        2
   participants would need to support the project. On October 1, 2010, the Director of BTOP
   replied with a letter stating that as of that date, NTIA had no information that called into
   question the recipient’s ability or intent to execute the project in accordance with the terms of
   the grant. This response did not satisfy Santa Clara’s and San Jose’s concerns; therefore,
   Santa Clara sent a letter to OIG, dated November 1, 2010, requesting an investigation into the
   award. (See attachment B for a timeline of the award and subsequent contacts between NTIA
   and Santa Clara and San Jose.)

•	 Motorola plans to manufacture a portion of the equipment intended for the BayWEB project,
   some of which will satisfy its match contribution. Both before and after receiving the grant
   award, Motorola sought from NTIA the approval to use market value in assigning value to
   Motorola-manufactured equipment instead of following the requirement in Title 48, part 31,
   of the Code of Federal Regulations (48 CFR part 31; Contract Cost Principles and
   Procedures). Because the cost principles state that equipment purchased for the project with
   federal funds and equipment that the grantee contributes must be valued at cost, using market
   value would not be an appropriate valuation method.

NTIA and the NOAA grants office (which made the Motorola award on NTIA’s behalf) share
responsibility for administering and monitoring the award. Therefore, successful award
monitoring, including addressing concerns about specific awards or grant terms and conditions,
requires effective coordination between the grants and program offices.

We initiated our review in December 2010 to determine how effectively the BTOP program
office, with the assistance of the NOAA Grants Office, was handling these issues. Attachment C
of this report outlines the objectives, scope, and methodology we followed for the review. The
following sections of this report detail our concerns with NTIA’s processes and the
recommendations we communicated to NTIA as a result.

NTIA Needs to Strengthen Its Procedures to Address Post-Award Complaints Regarding
BTOP Awards

NTIA’s handling of the complaint from San Jose and Santa Clara was insufficient for several
reasons. The award to Motorola is a significant investment (it is 1 of around 20 awards of more
than $50 million); it is complicated (it involves the support of multiple county and local
governments); and it is part of a key initiative for public safety. These factors suggest that a
complaint about the project deserves a rigorous review, timely responses, and clearly
documented review results. However, we found several problems in the handling of the initial
and subsequent complaints:

•	 NTIA’s documentation does not demonstrate sufficient research into complaints. Our
   review of NTIA’s documentation supporting its October 1, 2010, response to the complaints
   by Santa Clara and San Jose suggests that the bureau did not perform sufficient research
   before it responded to the officials. NTIA’s response was based largely on its review of the
   grant application’s original letters of support for the project from San Jose and Santa Clara.
   Both of these parties noted that the letters were in support of the project concept, not the
   project as it was awarded.



                                                 3

   In its response, NTIA claimed that when it researched the complaint, it reviewed the grant
   application and documentation regarding the award’s governance structure. However, our
   review of the records supplied by NTIA does not demonstrate that these factors were
   considered in formulating its response. We also reviewed an NTIA timeline that tracked
   meetings held in response to the BayWEB complaint. The timeline identified internal
   discussions, status updates provided to senior leadership, research, and discussions held
   between NTIA and external entities such as Motorola and Bay Area representatives;
   however, it lacked sufficient detail for us to ascertain what was discussed or any actions
   taken as a result.

   NTIA explained it did not reference the minutes for the meetings in the timeline because, due
   to its limited resources, maintaining such records would be unduly burdensome. However,
   we cannot reach a conclusion regarding the thoroughness of NTIA’s review process without
   an adequate record. To ensure transparency in its complaint review and decision making
   process, NTIA needs to develop the necessary policies and procedures for reviewing
   complaints and documenting results.

•	 Inadequate communications with the grants office. The Grants Officer makes awards and
   amendments, suspends or terminates awards, makes determinations of non-responsibility,
   and approves less-restrictive requirements, while the program office recommends courses of
   action to mitigate existing and prevent future issues. NTIA did not clearly articulate the
   issues associated with the Santa Clara and San Jose complaints to the Grants Officer until
   January 2011, around 4 months after the complaint was made.

   The Department of Commerce Grants and Cooperative Agreements Manual states that
   program officers are responsible for reporting potential or existing problems to the Grants
   Officer within 30 days, and for providing recommendations for remedy. We were told that
   weekly meetings were held to discuss BTOP awards, but the complaint and NTIA’s initial
   response to it were not discussed during these meetings. Therefore, NTIA’s actions were
   inconsistent with the Department’s guidance.

•	 Inadequate policies and procedures for handling complaints. NTIA did not have
   procedures in place to handle complaints and inquires about awards. Consequently, NTIA
   was not consistent in how they were handled. The FPO handbook states all third-party
   inquiries must be input into the Customer Service Management (CSM) tool, a computer
   program for tracking major programmatic or project issues, including allegations of waste,
   fraud, and abuse. However, a review of the CSM entries provided by NTIA revealed only
   select inquiries received from San Jose and Santa Clara. For example, there were entries in
   CSM for the initial inquiry dated September 8, 2010, but we did not find entries for San Jose
   and Santa Clara’s October 12 response to NTIA’s October 1 letter. We also did not find a
   documented decision to stop logging these inquiries into CSM or to provide a formal
   response to the complaint.

   Also, while NTIA documented its intent to answer inquiries promptly, we found that it did
   not identify specific complaint resolution procedures or give metrics for responding in a
   timely fashion. The Government Accountability Office (GAO) Standards for Internal
   Control in the Federal Government states that internal controls should be documented in


                                               4

    management directives, administrative policies, or operating manuals. 2 NTIA stated that its
    Program Services team is responsible for working with the FPO to resolve various
    compliance issues, but this team does not have specific procedures in place for handling
    third-party inquiries. While it may not be feasible to know the precise steps or amount of
    time required to resolve a complaint, NTIA can still develop general guidance for responding
    to requests. Establishing ways to measure timeliness and resolve inquiries will allow NTIA to
    periodically analyze its complaint resolution process and identify improvements, which will
    lead to a more efficient and effective customer service response.

•	 No process for independent review of complaints. Complaints such as those made by San
   Jose and Santa Clara require NTIA to have a credible process for addressing areas of
   concern. Currently, the structure of NTIA’s program office is such that the same organization
   that reviews original applications (including performing due diligence and making
   recommendations to award specific grants) also reviews any complaints received against
   those awards. The objectivity of NTIA’s complaint review processes could, therefore, be
   questioned. Parties concerned with awards and projects need assurance that their concerns
   are receiving an objective analysis, but in our view NTIA does not currently have the right
   internal structure or mechanisms to perform this independent review.

Overall, we found that NTIA did not respond in a manner sufficient to resolve Santa Clara’s and
San Jose’s requests for investigation of the BayWEB award. On February 24, 2011, NTIA
responded to Santa Clara’s and San Jose’s letters from January 18, January 31, and February 15,
explaining its decision that there was an insufficient basis to de-obligate or suspend the award or
to impose special award conditions. On February 28, 2011, Santa Clara responded to NTIA,
expressing disagreement with this decision. Given the fact that the success of the grant depends
upon the participation and financial commitment of several local government bodies, it is
important to address unresolved concerns about the award process. Accordingly, we plan to
further review the issues raised in the complaint.

Recommendations

We recommend that the Assistant Secretary for Communications and Information

1.	 establish a process for ensuring an independent review of difficult complaints—one that
    benefits from input from independent parties such as the Office of Secretary and grants office
    and stresses the importance of documenting actions taken by NTIA in response to the
    complaints, and their results;
2.	 develop policies and procedures for responding to complaints, including establishing metrics
    for measuring timely response and formal protocols for communicating issues with the
    Office of Inspector General; and
3.	 promptly address the BTOP office’s lack of coordination with the grants office by issuing a
    memorandum to BTOP staff on the importance of communicating with and enlisting the
    support of the grants office when responding to complaints and other issues.


                                                            
2
   GAO, November 1999. Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, 15. 


                                                     5

BTOP Program Office’s Handling of Motorola’s Request to Depart from Grant Terms and
Conditions Demonstrates the Need to Improve Communications with the NOAA Grants
Office

The financial assistance award (form CD-450) signed by Motorola, Inc., and by the NOAA
Grants Officer on behalf of NTIA represents the government’s award offer and the recipient’s
agreement to comply with award terms and conditions. One of the terms Motorola agreed to
comply with was 48 CFR part 31, Contract Cost Principles and Procedures, which state that both
the equipment purchased for a project with federal funds and the equipment that a grantee
contributes must be valued at cost.

The federal grant is matched by Motorola’s contribution of $22 million. The estimated total
project cost of $72 million is composed of $44 million in equipment, with the remainder
representing services and other costs. Of this $44 million, Motorola plans to contribute a
significant portion as equipment that the company will manufacture itself with the rest to be
provided by third-party vendors. Even before it accepted the award, Motorola discussed with
NTIA the applicability of the contract cost principles and Motorola’s desire to use an alternative
valuation methodology (based on market value) for the equipment it planned to manufacture.

However, under the terms of the grant, using market value would not be an appropriate valuation
method. Because Motorola is required to provide a matching share, and Motorola has indicated
that a significant portion of its matching share will be equipment, the proper valuation of
equipment is key in ensuring compliance with the cost principles applicable under this program.

The grants office did not become aware of Motorola’s challenges related to compliance with the
terms of the grant agreement until January 14, 2011, after receiving our request for a meeting on
cost valuation for the project. Discussions between the NTIA program office and Motorola
regarding these challenges occurred for approximately 4 months before the Grants Officer was
properly notified of a potential departure from the award terms and conditions. This action was
inconsistent with the Department’s grants manual, which states that program officers are
responsible for reporting potential problems, inconsistencies, or instances of noncompliance to
the Grants Officer within 30 days.

Per version 2.0 of the FPO handbook (December 2010), program officers are also responsible for
providing “written background and recommendations to the Grants Officer on recipient award
action requests and programmatic issues, such as amendments to the project description, budget
or transfer requests.” (Award actions are changes or amendments to the original terms and
conditions of an accepted award package, such as a change of address, changes to the approved
project budget or original scope of work, or extension of the performance period.) Award
recipients typically initiate requests by submitting an award action request form to their FPO via
one of two systems used by NTIA to administer awards: Grants Online (GOL) or the Post Award
Monitoring System. The FPO then makes a recommendation based on the request form and its
analysis of the pertinent issues, and the Grants Officer evaluates and approves or disapproves the
request.

Because Motorola’s first two valuation proposals were submitted via e-mail, not as an award
action request, NTIA lacked a formal submission and an adequate record of related discussions.


                                                 6

NTIA’s position is that a formal request was not submitted because the discussions with
Motorola were preliminary.

The grants office has taken a firm position that the terms of the grant agreement must be upheld.
On February 10, 2011, the Department’s Office of General Counsel also determined Motorola
must comply with 48 CFR part 31 cost principles. However, NTIA had let the issue go
unresolved for more than 4 months, when it should have been promptly communicated to the
grants office for resolution. The grants office was surprised to find out about Motorola’s requests
and NTIA’s subsequent actions. The office was also surprised that this matter continued be an
issue, as Motorola had submitted a request in March 2010 to waive the requirement to comply
with 48 CFR part 31; that request had been denied in June by NTIA on the grounds that
Motorola did not provide adequate support for the request or demonstrate why the waiver would
be in the best interest of the government.

In a meeting with us on January 18, 2011, the grants office confirmed that NTIA had not
consulted with it prior to our meeting request. The office reaffirmed that it still believed the cost
principles applied, and that NTIA had been told that it should inform Motorola of this promptly.
NTIA subsequently sent a formal denial letter to Motorola, dated January 24, 2011. The letter
stated Motorola did not provide sufficient support for its proposal, nor did Motorola show how
an alternative cost principle would provide benefit to the government.

In addition, the extent to which NTIA allowed this issue to continue without consulting the
Grants Officer (the appropriate person for addressing requests to change award terms and
conditions) is unclear. Prompt action (i.e., communicating with the grants office and Office of
General Counsel) would have been prudent in order to resolve the issue, which was pending even
before the grantee signed the award document in September 2010.

On February 4, 2011, Motorola submitted an award action request in GOL for the review of its
third valuation proposal. On March 7, the NOAA grants office, on behalf of NTIA, issued a letter
to Motorola stating that 48 CFR part 31 must still be followed and that this matter is considered
closed.

Recommendations

We recommend that the Assistant Secretary for Communications and Information

1.	 ensure, in NTIA’s monitoring of the award, that any equipment is valued at cost, consistent
    with the cost principles; and

2.	 take immediate action—similar to our earlier recommendation to improve coordination with
    the grants office—directing BTOP personnel to promptly communicate any potential
    problems or deviations to the Grants Officer.

Summary of Agency Comments and OIG Response

In responding to our draft report (attachment A), the Assistant Secretary for Communications
and Information states that NTIA will take the appropriate steps to address our


                                                  7

recommendations. He further notes that NTIA “is committed to making process improvements,
strengthening its compliance function, and enhancing [the bureau’s] customer service to ensure
transparency and accountability.”

NTIA summarizes the steps it is taking to address our recommendations. The Assistant Secretary
reports that he has notified NTIA staff that they must promptly communicate issues to the grants
office consistent with the Commerce grants manual. NTIA also discusses its new policy for
complaints that raise particularly difficult, sensitive, or chronic allegations to BTOP-funded
projects, noting that the process will be handled outside the program office. We are pleased that
NTIA has already initiated corrective actions.



Within 60 days of the date of this memorandum, please provide us with an action plan that
responds to all of the report recommendations. We would like to extend our thanks to the BTOP
team for the courtesies shown to us during our fieldwork, and we look forward to reviewing the
action plan. If you have any questions, please contact me at (202) 482-2754, Katie McKevitt at
(202) 482-0264, or Chris Rose at (202) 482-5558.

Attachment

cc: 	   Scott Quehl, Chief Financial Officer and Assistant Secretary for Administration
        Kathy Smith, NTIA Chief Counsel




                                                8

Attachment A: NTIA Response




             9

M ,. To<I<I J. "lI.",.
"1"'127. 1011
r.~<l.f    •

thoroughly uOO uddn'SS"d ul'l'roprialcl)·. NTI,\ n>cognize'lltm we can enhance our processes 10
imp<Q\'c cOSlo",,,r sen'ice manugemenl and rcronl.keeping.           "S
                                                                 a ",sull. IhI: Agene)' h... taken
SI.ps resporu;i,'c 10 IIJc area.< you raised as follows:

De,,""" lI",irtrll P,,/irk" ami Pmc,·d",.x forlfmrdli~g Third·/'orry Corrcspm,,/t'/Jce
         1lIe Departmenl of Comm"'""'e Grunl. Manual <loes !I01 req"i"" NTI,\ 10 reSflOnd lO third·
part)" corrc:spondence regarding granl n:cipietll., Consi.<lcnl wilh lhe Al,'<11C}"'s gools of
lra"'parenc)" and openness. bow"cr, NT1A has St.>ughllo p<Qv;dc limely aOO ""curulc re,p'lI\""
10 public i"'Joiries abouIllTOI'. In fael. NTI,\ d.,'e1oped u I'fOCCSS 10 llIanage and track all such
correspondence and. during lhe lrans'lion Iu IhI: posl-aw"nl phase of lhe program. NTI"
nlOdifled litis syswn 10 ben.. lmCk eort"C$JXlndence relaling 10 IITOP inquiri.,. and issues.

        In <tlpO!1"" 10 !he OIG·. rcromrncndmiOIl. NTI" has ",,·,ewe<! and fortllalized its policy
fill" BTOI' respon.ses lu Ininl·pany co~pondenc•. including lhose comaininll conCcms
regartling IHOP projects or proc.,..... More .p<:cilieally. NTlA has imp",wed the process by
re4uiring OIG OOIitical;o" of all such correspondence 10 help charncl.,i,.., lite proper "'ope            nr
NT1A', response. This, of course, in\'Oh'es NTlA deferencc 10.nd 'upp<><t ofOIG's dUly and
pn:rog:llive lO .xerei"" principal authorilY 10 OOdrc.s serious allegalion of waSle, f...."l. oc abuse.
Nl1A has alSt.> C'Stabli.hed """,ice-Ie,'e1 stal1dard. to whiclt ProWl'm Slaff should adhere.
fnnher. BTOP', Corn:spond<-"'ee T."",' will eoolin"" 10 p<Qvide ",gular updales regarding
o"lSlanding issues lhe .')"Olem l,.""k.. including UllY lrends idenlified in Ihinl·parl}'
correspondence, As lUI mopul of tltis jlI'O<C"l. NTI,' "ill eonlinually impro"e c,,<lomcr ser";ce
willt additi01lJlI ,,-,<ipiem or FI'O guidance (e.g.. fael sheets. I",ining. or lechnieal assistance). as
"eeded, in .... ponse lO s""h trends.

        Nl'lA also ",,""""ed lhe Ihinl_party cor.... pond.nce policy wilh a "",w revicw proc.ss for
compla'nts that raise particularly dimcllh, ",n,ili,'., or cltrunie all.gati(lll!i rel.ted to BTOI'­
funded projC'C1S where. aftcr conwhalion willt OIG. il is decided thai         w.
                                                                                will handle the
complaint. Moving forwanl. the.....omplaints will follow' a re",ew p,,,,,css lhat will be C'SCal3ted
Ihrough NTIA " Chief Fi""""inl Om""r (CfO). To              ""SU'"
                                                                8.J\ oplUn.11 and objecli"e r""iew.
B roP's Complianc. Team' will re,'iewand prcpa'" init;.1 reSflOnscs {Q lhese 1)'pe$ of
complainlS. To ",'oid lilly appearance I)f conllict. lhe Compliance Team member assigm'<1lo an
issue will not    Ita,·.
                    participated in pre-aw"Unl due diligence,.nd any Team l..",d assigrn.'<1 to
revicw draft rcspooses w;1I 001 Ita'c I't'vicwed lhe p<Qj""l in queslioo during pre-,wllrd. Th.
Complill1lOC T.am will also seek input during lhe rcviewproces. from lhe appropriate GmnlS
Ollioe, NTIA 's Olliee oflhe ChicfCounscl. lhe l)cpanmenl's Office of General Counscl. and
the OIG, lIS appropriat.. Folio" ing its ",,'iew, lhe Complianc. T..~m ,,;II revicw tindings "itk
NTlA '$ Office ortlte Ch;efCoun",1 and the Granls Ome•. and n'flOrI findings 10 sen;or



I TIl< Cone'l"J"'l<""" Tum i•• Compon<tlt of tho Il'I'Or ~m Scf,,<os Offl«, "hioh 0'''''''''' .....,..,
,,"»porn"""'" IUidon« ............... _ ...Inl """"", r... thinl1""Y '-0""'1'000"'1«,

1'1_
, 11>< Campi..... r<IIm'" <ompon<nt or1l.. DlOr ~ S<f,.I<OS Offl«, "h",h pro,..... OIl..... ., til<
         Olll<. rot",";n, ~;., ;,..,.. _ _ I """pi........




                                                  10

'fr.'    d J. 7in   r
 I'ril27.2111\
"~      rJ
                                                         \0' r..:1.: mm mlali n. thi   Jl \\   proc   \\111 ~
hanoI J oul 10

Elllltlll't' mil"       Ollie'   /JIm/illd/llJ1I




Belll:r Ifofl/fOr ./ward Tam ulll CcmdulOII




                                                   11

.\I'.T........ _
AjIriI :-. ~11
. . . ~.U



       IIool ,,",vd I O ~ 10 YoUt1Oith you .. ~ "'ftlCCS 1hls imporurll: prognm.
If Vl1A may be of fu.d.... ~ pkaor- 0DflbI;l MihcM aro-ll.
                                                     NTIA 's Liai.... 10 010.•
(202j4S2·I.Sl.

                                           Sirl<:ady.




                                    12

   Attachment B: Timeline for the BayWEB Project and Correspondence on the Award



Date                 Event

March 26, 2010       Motorola submits application to NTIA or BayWEB project.
                     NTIA Assistant Secretary denies Motorola’s request for a waiver of the Federal
June 28, 2010
                     Acquisition Regulation (FAR) cost principles.
                     NTIA Assistant Secretary sends memorandum to NOAA Grants Office
July 7, 2010
                     recommending award to Motorola for the BayWEB project.
August 13, 2010      NOAA Grants Office makes BTOP grant award to Motorola.

                     Chuck Reed (Mayor, San Jose), and Jeffrey Smith (County Executive, Santa
                     Clara), send a letter to Secretary Locke requesting the award be suspended or
September 8, 2010
                     postponed until concerns regarding the procurement and vendor selection
                     processes have been addressed.
                     Motorola agrees to the award by signing the Form CD-450 “Financial Assistance
September 16, 2010
                     Award.
                     Director of BTOP responds to Santa Clara, stating that to date NTIA has not
                     received any information calling into question the recipient’s ability or intent to
October 1, 2010      execute the project in accordance with the grant terms. The letter cites NTIA’s
                     review of the memorandum of understanding between the five local governments
                     involved and letters of support encouraging NTIA to award the grant.
                     County Executive for Santa Clara and Mayor of San Jose send a response to
                     NTIA’s October 1 letter, outlining their concerns regarding the Bay Area Urban
                     Area Security Initiative (UASI) General Manager circumvention of the Bay Area
October 12, 2010
                     UASI Approval Authority process, the process used to select Motorola,
                     misrepresentations in the application and potential conflicts of interest with former
                     Motorola employees
                     County Executive of Santa Clara sends a letter to Todd Zinser, Inspector General
November 1, 2010
                     for the Department of Commerce, requesting an investigation of the award.

                     Secretary Locke responds to Mayor of San Jose, indicating NTIA evaluated
                     Motorola’s application according to requirements established in the second Notice
December 2, 2010
                     of Funds Availability. In addition, NTIA found no reason to question the process by
                     which the Bay Area jurisdictions chose to participate in the BayWEB project.
                     Mayor of San Jose replies to the Secretary’s December 2 letter, stating that
                     although his concerns are local in nature, they could be of some interest to NTIA
December 13, 2010    because they resulted in misinformation and misrepresentations in the application.
                     Mr. Reed also indicates his letter of support was obtained under false pretenses
                     and that he does not wish to be a party to misleading NTIA.
                     County Executive for Santa Clara and Mayor of San Jose send a letter to NTIA,
                     the NOAA Grants Office, and the Recovery Accountability and Transparency
January 18, 2011     Board to provide additional information related to the BayWEB complaint, request
                     an additional investigation, and ask that the award be suspended or high-risk
                     special award conditions be imposed.
                     County Executive for Santa Clara sends a letter to NTIA following up on request
January 31, 2011
                     to investigate the Motorola award.
                     Motorola submits award action request not to follow the cost principles found at 48
February 4, 2011
                     CFR part 31 to place a value on the equipment it contributes to the project.



                                                  13

Date                Event

                    County Executive for Santa Clara sends a letter to NTIA to follow up on January
February 15, 2011   18, 2011, complaint and identify actions that NTIA should take to address
                    problems with the award and the project.
                    NTIA sends a response to Santa Clara and San Jose, stating that it has declined
February 24, 2011
                    to de-obligate, suspend, or impose special award conditions at this time.
                    Santa Clara responds to NTIA with a letter expressing that they disagree with
February 28, 2011   NTIA’s decision that there is insufficient reason to de-obligate or suspend the
                    award or impose special award conditions.
                    NOAA grant office issues a letter to Motorola stating that 48 CFR part 31 must
March 7, 2011
                    continue to be followed and they consider this matter closed.




                                               14

                    Attachment C: Objectives, Scope, and Methodology



We initiated this review in December 2010 based on the concerns San Jose and Santa Clara
raised about the Motorola award and NTIA’s process addressing those concerns. Our work was
performed in accordance with the Quality Standard for Inspections (January 2005) issued by the
President’s Council on Integrity and Efficiency and under authority of the IG Act of 1978, as
amended, and Department Organizational Order 10-13 (August 2006). We conducted our review
from November 2010 through March 2011 at the Department of Commerce headquarters in
Washington, D.C.

The objectives of our review were to (1) examine the procedures NTIA followed in its response
to the initial complaint from the County of Santa Clara and City of San Jose about the grant to
Motorola, and (2) review how NTIA handled Motorola’s request for deviating from the approved
equipment valuation method. The scope of our review did not include a final determination of
the concerns raised by the County of Santa Clara and City of San Jose or the appropriateness of
Motorola’s equipment valuation proposals.

To accomplish these objectives, we interviewed officials from NTIA, NOAA, Motorola, the
County of Santa Clara, the City of San Jose, Alameda County, and the State of California. We
also reviewed documentation, including

    •	 The initial September 8, 2010, letter submitted by the County of Santa Clara and City of
       San Jose expressing concerns with the application process and the progress of the
       project, and subsequent letters identifying concerns with the project.

    •	 The October 1, 2010, NTIA response to the complaint and internal documentation
       associated with developing the response.

    •	 The application submitted by Motorola, documentation associated with the review of the
       application, and the CD-450 Financial Assistance Award form.

    •	 Documentation associated with Motorola’s request to follow a valuation process other
       than the one outlined in the grant terms and conditions, and NTIA’s response that it
       would not waive the condition.

    •	 The Department of Commerce Grants and Cooperative Agreements Manual and
       Broadband Technology Opportunities Program: Federal Program Officer Handbook.




(BTOP-000116) 




                                               15

